APPENDIX

TABLE OF CONTENTS--APPENDIX

Seventh Circuit, No. 19-3327
(Dec. 21, 2020) ................................................. 1a
Seventh Circuit Oral Argument Transcript
(June 4, 2020) .................................................. 9a
Northern District of Illinois,
No. 18-cv-7766 Memo. Opinion & Order
(Sept. 30, 2019) ............................................. 22a

1a
In the
United States Court of Appeals
For the Seventh Circuit
____________________
No. 19-3327
ASHLEY NETTLES,
Plaintiff-Appellee,
v.
MIDLAND FUNDING LLC, and
MIDLAND CREDIT MANAGEMENT, INC.,
Defendants-Appellants.
____________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 18-cv-7766 — Edmond E. Chang, Judge.
____________________
ARGUED JUNE 4, 2020 — DECIDED DECEMBER 21, 2020
____________________
Before SYKES, Chief Judge, and EASTERBROOK,
Circuit Judge.1

The Honorable Amy Coney Barrett, Associate Justice of the
Supreme Court of the United States, was a judge of this court and
member of the panel when this case was submitted but did not
participate in the decision and judgment. The appeal is resolved
by a quorum of the panel pursuant to 28 U.S.C. § 46(d).
1

2a
SYKES, Chief Judge. After Ashley Nettles defaulted
on her credit-card account, Midland Funding LLC
acquired the debt. Midland sued Nettles in state court,
and the parties entered a consent judgment requiring
a monthly repayment plan with modest automatic
draws from her bank account. The automatic draws
ceased after three months when Midland’s law firm
went out of business. A Midland affiliate then sent
Nettles a collection letter that overstated her
remaining balance by about $100. That prompted this
suit under the Fair Debt Collection Practices Act
(“FDCPA” or “the Act”), 15 U.S.C. §§ 1692 et seq.
The complaint alleges that the letter is false,
misleading, or otherwise unfair or unconscionable in
violation of 15 U.S.C. §§ 1692e and 1692f. Nettles
proposes to represent a class of consumers who
received similar letters. The credit-card agreement,
however, contains an arbitration provision giving
either party the right to require arbitration of any
dispute relating to the account, including collection
matters. Midland moved to compel arbitration. The
district judge denied the motion, concluding that the
arbitration clause does not cover this claim. As
permitted by the Federal Arbitration Act, Midland
appealed, asking us to reverse and remand with
instructions to grant the motion to compel arbitration.
A jurisdictional defect prevents us from reaching
the arbitration question. Nettles sued for violation of
§§ 1692e and 1692f, but she has not alleged any injury
from the alleged statutory violations. Applying our
recent decisions in Larkin v. Finance System of Green
Bay, Inc., Nos. 18-3582 & 19-1537, 2020 WL 7332483
(7th Cir. Dec. 14, 2020), and Casillas v. Madison

3a
Avenue Associates, Inc., 926 F.3d 329 (7th Cir. 2019),
we vacate and remand with instructions to dismiss the
case for lack of standing.
I. Background
In 2015 Ashley Nettles applied for a credit card
with Credit One Bank. The bank accepted her
application and sent her a credit card and a copy of the
cardholder agreement. The agreement explained that
by using her card, she became bound by the terms of
the cardholder agreement and that its terms were
enforceable not only by Credit One but also its
successors and assigns. The agreement contains a
provision that either party may require arbitration of
any dispute relating to the account, including
collection matters. Nettles used the card after
receiving it and thus became bound by the agreement.
Nettles continued to use her credit card but
stopped making payments in January 2016. In July
2016 Credit One charged off the $601.97 balance and
sold its rights in her account to MHC Receivables,
LLC, which later sold the debt to Sherman Originator
III LLC. Sherman Originator in turn sold the debt to
Midland Funding LLC.
Midland hired the law firm Blatt, Hasenmiller,
Leibsker & Moore LLC, which sued Nettles in
Michigan state court to collect the debt. The parties
entered a consent judgment that required Nettles to
pay Midland $689.37 (the $601.97 account balance
plus Midland’s $87.40 in court costs) in monthly
installments of $50 until paid in full. The Blatt law
firm, acting on behalf of Midland, automatically
withdrew the $50 payments from Nettles’s bank

4a
account for three months but then stopped when the
firm dissolved. At this point Nettles owed Midland
$539.37.
In June 2018 Midland Credit Management, Inc., a
Midland affiliate, sent Nettles a letter stating that it
would be servicing the debt on behalf of Midland
Funding and that her current balance was $643.59,
about $104 more than her actual outstanding balance.
Nettles responded with this lawsuit against Midland
and its affiliate.2 (The appeal doesn’t require us to
distinguish between the two, so we refer to them
collectively as “Midland.”)
The complaint alleges that the collection letter was
false,
misleading,
or
otherwise
unfair
or
unconscionable in violation of §§ 1692e and 1692f of
the FDCPA. Nettles sought actual and statutory
damages and proposed to represent a class of
consumers who received similar letters overstating
their account balances. Midland moved to compel
arbitration, invoking the arbitration provision in the
Credit One cardholder agreement. The judge denied
the motion, concluding that the claim was beyond the
scope of the arbitration provision. He reasoned that
the dispute concerned a matter relating to the consent
judgment entered in Michigan court—not Nettles’s
Credit One account.
Midland appealed under the Federal Arbitration
Act, which authorizes an immediate appeal from an
order denying a motion to compel arbitration. 9 U.S.C.

The complaint also named the Blatt law firm as a defendant,
but Nettles voluntarily dismissed her claim against the firm.
2

5a
§ 16(a)(1); see Hennessy Indus. v. Nat’l Union Fire Ins.
Co., 770 F.3d 676, 678 (7th Cir. 2014).
II. Discussion
Most of the briefing concerns the arbitration issue,
but the parties also identify a possible problem with
Nettles’s standing to sue. Their attention to the
standing issue is belated; in the district court, no one
addressed whether Nettles adequately pleaded an
injury traceable to the alleged FDCPA violations. But
Article III standing is jurisdictional and cannot be
waived. FW/PBS, Inc. v. City of Dallas, 493 U.S. 215,
231 (1990); Freedom from Religion Found., Inc. v.
Nicholson, 536 F.3d 730, 737 (7th Cir. 2008). The
standing inquiry resolves this appeal.
As the case comes to us, our analysis of Article III
standing asks whether the complaint “clearly allege[s]
facts” demonstrating that Nettles has “(1) suffered an
injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is
likely to be redressed by a favorable judicial decision.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016).
An injury in fact is an “invasion of a legally protected
interest that is concrete and particularized and actual
or imminent, not conjectural or hypothetical.” Id. at
1548 (quotation marks omitted). A concrete injury is a
real injury—that is, one that actually exists, though
intangible harms as well as tangible harms may
qualify. Id. at 1548–49.
Nettles alleges that Midland’s collection letter
violated her rights under the FDCPA. But a plaintiff
does not “automatically satisf[y] the injury-in-fact
requirement whenever a statute grants a person a

6a
statutory right and purports to authorize that person
to sue to vindicate that right.” Id. at 1549. To the
contrary, “Article III standing requires a concrete
injury even in the context of a statutory violation.” Id.
Our recent decisions in Casillas and Larkin
applied these principles to claims alleging violations
of the FDCPA. In Casillas the plaintiff alleged that the
defendant debt collector violated her rights under
§ 1692g of the Act by sending her an incomplete
collection letter omitting one part of the statutorily
required notice about how to exercise her right to
dispute her debt. Casillas, 926 F.3d at 332. We
explained that the plaintiff lacked standing because
she had not alleged that the incomplete notice harmed
her or created any real risk of concrete harm to her.
Id. at 334. She did not claim, for example, that she
tried to dispute the debt or even considered contacting
the defendant to dispute or verify the debt. Id. So there
was no risk that the defendant’s error could have
caused her to lose § 1692g’s statutory protections
because she did not ever consider using them. Id. at
336.
In Larkin we extended the reasoning of Casillas to
claims under §§ 1692e and 1692f of the FDCAP. 2020
WL 7332483, at *3–4. We acknowledged that
§ 1692g—the provision at issue in Casillas—imposes
procedural obligations on debt collectors, while
§§ 1692e and 1692f are substantive provisions
prohibiting
“false,
deceptive,
or
misleading
representations” and “unfair or unconscionable” debtcollection practices. Id. at *3. We held that the
distinction between procedural and substantive
statutes has no effect the standing analysis: “An

7a
FDCPA plaintiff must allege a concrete injury
regardless of whether the alleged statutory violation
is characterized as procedural or substantive.” Id.
(citing Thole v. U.S. Bank N.A., 140 S. Ct. 1615, 1621
(2020)). The plaintiffs in Larkin alleged that certain
statements in the defendant debt collector’s dunning
letters were false, misleading, and unfair, but the
complaints contained no allegations of harm or “even
an appreciable risk of harm” from the alleged
statutory violations. Id. at *4. We concluded that the
claims must be dismissed for lack of standing. Id.
The same result is required here. Nettles alleges
that Midland violated §§ 1692e and 1692f when it
overstated the amount of her debt in its collection
letter. But her complaint does not allege that the
statutory violations harmed her in any way or created
any appreciable risk of harm to her. Indeed, on appeal
she admits that the letter didn’t affect her at all and
that her only injury is receipt of a noncompliant
collection letter. She invites us to reconsider Casillas
under Circuit Rule 40(e). We decline the invitation.3
As something of an afterthought at oral argument,
Nettles argued that becoming annoyed and consulting
a lawyer suffice to establish injury for standing
Nettles relies in part on the Sixth Circuit’s decision in Macy v.
GC Services Ltd. Partnership, 897 F.3d 747, 757 (6th Cir. 2018),
which held that an alleged violation of § 1692g is itself enough to
create standing. But in Casillas we explicitly rejected Macy as
inconsistent with Spokeo, acknowl-edging that in doing so, we
created a circuit split. Casillas v. Madison Ave. Assocs., Inc., 926
F.3d 329, 335–36 (7th Cir. 2019). And as required by Circuit Rule
40(e), Casillas was circulated to the full court. Id. at 336 n.4.
Another Rule 40(e) circulation on the same issue would be
pointless.
3

8a
purposes. We rejected that argument in Gunn v.
Thrasher, Buschmann & Voelkel, P.C., No. 19-3514,
2020 WL 7350278, at *2 (7th Cir. Dec. 15, 2020).
Larkin and Casillas are dispositive here. Because
Nettles has not alleged that she suffered an injury
from the claimed FDCPA violations, she has failed to
plead facts to support her standing to sue. We VACATE
the order denying Midland’s motion to compel
arbitration and REMAND with instructions to dismiss
the case for lack of jurisdiction.

9a
Nettles v. Midland Funding, LLC
Transcription of Oral Arguments, June 4, 2020
Judge Easterbrook
And with that, we’re ready for our first case, Nettles
against Midland Funding. Mr. Seitz.
Mr. Seitz
May it please the court: Ted Seitz appearing on behalf
of the Appellants-Defendants, Midland Funding LLC
& Midland Credit Management. This is an appeal
from the district court’s denial of a motion to compel
arbitration. However, during the appeal briefing,
there has been an issue raised – – by actually the
appellee – – on Article III standing. This issue was
briefly briefed before the court – – district court – –
but never addressed in the district court’s denial of the
motion to compel arbitration opinion. So with that, I
didn’t know whether the court would like me to
address the motion to compel arbitration opinion and
that part of the appeal or the Article III standing.
Judge Easterbrook
Jurisdiction is the first issue in every case, and so
that’s where you should begin.
Mr. Seitz
Well, Your Honor, thank you. With Article III
standing, just to give some background on the timing
here: while the motion to compel arbitration was
pending before the district court, this court entered its
opinion in Casillas – – I think it was actually the same
day as today, I think it was June 4, 2019 – – which
addressed Article III standing in FDCPA cases,

10a
including putative class action cases. So, as far as the
court or the defendants, we had not mentioned that to
the district court as far as address Article III standing
at that time. That – – it kind of sat there for a little bit
and then the court issued its opinion on the compel
arbitration piece. It appears to be that the PlaintiffAppellee concedes that under Casillas, she does not
have Article III standing to advance her FDCPA
claims in this case. And in the briefing there was a
mention or request that instead Casillas be taken
before the whole entire en banc of the Seventh Circuit
to address standing at the court as a whole. We do
mention our opinion on that in our reply brief, and
that we don’t see any reason for that to occur. At the
time Casillas did come out on Article III standing,
there was a request to bring it before the entire
Seventh Circuit because it was viewed to be in conflict
with an opinion from the United States Sixth Circuit
Court of Appeals titled Macy GC Services. That was
not accepted, and so Casillas, we believe, continues to
remain good law. And, in fact, I think as we mentioned
in our briefing before the court, we don’t believe
actually that the Sixth Circuit is in disharmony with
the Seventh Circuit on Article III standing.
Judge Barrett
Mr. Seitz, could I interrupt you just to ask a question?
Mr. Seitz
Yes.
Judge Barrett
Just the fact – – I mean, this is different from Casillas,
because in Casillas there was an omission of

11a
information that was supposed to be in a form. And,
you know, Casillas didn’t allege that she suffered any
harm from that omission. This is different because
Midland sent a letter that, you know, was – – dealt
more specifically with Nettles, misstating the amount
of her debt. And I – – one thing I wanted to clarify that
wasn’t entirely clear to me: Midland never tried to
correct that, right? Because it had actually
underreported the amount that she owed to the credit
agencies. Is that correct?
Mr. Seitz
That’s correct, Your Honor.
Judge Barrett
So was this letter simply an informative letter, or was
it an attempt to get this money from Nettles?
Mr. Seitz
Well, I think it was a little bit of both, Your Honor.
This arose from a consent judgment in Michigan state
court in which Midland was represented by a law firm
which actually no longer is around – – Blatt
Hasenmiller. And so once that occurred, Midland took
over the debt and sent out a letter. And it was labeled
a welcome letter. So, in a sense, it was informative,
because there was a consent judgment in place. But I
think also as well it was an attempt to collect on that
consent judgment as well.
Judge Barrett
Okay.

12a
Mr. Seitz
So – – and I don’t think that our client disputes that
piece, that the letter, while it was a welcome letter,
saying, Yes, we have now taken the lead on your
account that we owned anyway and we have a
judgment in – – we are also trying to collect that
amount. So you are correct.
Judge Barrett
But you never tried to do anything more after sending
that letter to get that amount from Nettles?
Mr. Seitz
Not that I’m aware of, Your Honor. I mean, there was
some garnishments in the Michigan state court that’s
actually the subject of another class action that’s
currently pending in the Eastern District of Michigan.
But that was it, Your Honor, and so it was a
misstatement of the balance – – incorrect balance on
that letter. But it was a welcome letter since Midland
Credit Management received it.
Judge Barrett
Okay. Thank you.
Mr. Seitz
Yeah. And just to get back to the Article III standing
piece in the Sixth Circuit Court of Appeals being
different than the Seventh Circuit. There have been
some subsequent cases in the Sixth Circuit, a decent
amount dealing with Article III standing. There was
the Hagy decision, and there was the Huff TeleCheck
decision, and then recently the Buchholz decision. All
those appear to put more clarity on what Macy did and

13a
did not stand for. And it appears that now the Sixth
Circuit is in harmony with Casillas, we would argue,
and the standard that “no harm, no foul.” And if
there’s no injury arising from a statutory claim, just
because it’s a statutory claim, there cannot be Article
III standing. And so, with that, certainly – –
Judges Sykes
Mr. Seitz, this is Judge Sykes. So what is your position
about whether the plaintiff has standing?
Mr. Seitz
Our position is that the plaintiff does not have
standing under Casillas. We take the plaintiff’s
counsel – – plaintiff at their word that they don’t, and
I believe that to be the case, especially – – it’s even
more supported on just the Article III standing issue
by the U.S. Supreme Court’s opinion issued Monday of
this week in the Thole v. U.S. Banks case. Which,
while it is an ERISA case, it provides some more
clarity on Article III standing and statutory causes of
action. And, in fact, tries to simplify that, to take it
from Spokeo. So with that, and I don’t know how much
time I have left – –
Judge Easterbrook
You have exactly two minutes left.
Mr. Seitz
Thank you, Your Honor. With that, on the motion to
compel arbitration, the district court denied it based
on the fact that it did not believe that the dispute was
in the scope of the arbitration provision – – meaning
that a consent judgment was somehow different than

14a
an account. But, as we set forth in our brief, we think
that was certainly an error – – especially when looking
at the United States Supreme Court precedent, and
this court’s precedent, that arbitration provisions are
meant to be broadly construed. Really, the consent
judgment related to the account. And there is caselaw
from this circuit as well – – the Gore v. TeleCheck [sic]1
case, and there’s the case from I think 1987, the Niro
case, that deals with two agreements or settlement
agreements and saying those also can be enforceable
by an arbitration provision. So with that I would just
reiterate that we ask that the district court’s opinion
be reversed, and the case remanded. However, if there
is no Article III standing, then the Court should
dismiss the case as well. Thank you, Your Honors.
Judge Easterbrook
Thank you, Counsel. Mr. Warner.
Mr. Warner
Good morning. May it please the court: I will address
standing first and then to the merits. Plaintiff’s
response does not concede a lack of standing.
Plaintiff’s response brief here and below asserted that
Article III’s standing requirements were satisfied,
applying Spokeo. If Midland’s violation of the FDCPA
falls under the prohibition that a debt collector may
not attempt to collect more money than what the debt
collector owes – – a personal right afforded to her
under the Act. Seeking more money than owed is akin
to the common-law tort of malicious prosecution.
Plaintiff’s response also set forth multiple potential
1

Gore v. Alltel Commc’ns, 666 F.3d 1027, 1034 (7th Cir. 2012).

15a
risks of harm that the form collection letter could
objectively pose – –
Judge Easterbrook
Counsel?
Mr. Warner
Yes.
Judge Easterbrook
Counsel, the question I have is whether you believe
your position on standing is consistent with Casillas.
Mr. Warner
Casillas is different in that the – – it sets a “no harm,
no foul” standard, which I guess if you do – – we do
disagree with the “no harm, no foul” standard. It’s
inconsistent with Spokeo. It’s also now inconsistent
with the – –
Judge Easterbrook
No Counsel, I would like you to address my question,
which is whether your position that your client has
standing is consistent with Casillas. You have asked
us to overrule that decision, which implies that you
can’t win unless it is overruled. And I wonder if that’s
your understanding.
Mr. Warner
Well, judges disagree a lot of times, even at the
Supreme Court they get five to four. We said that
there’s the potential. We see how Casillas could be
read in a manner, by some of the district court judges,
that would indicate that the Plaintiff does not have

16a
standing in this case. Our – – and then, later on
followed by Judge Wood’s opinion that she issued in
Lavallee seems even to depart by Casillas where the
court then looks at the totality of the circumstances –
–
Judge Easterbrook
Counsel, opinions speak for the court. They do not
speak for their authors.
Mr. Warner
Correct.
Judge Easterbrook
It is not Judge Wood’s opinion. It is the Seventh
Circuit’s opinion.
Judge Barrett
Counsel – – I’m – – this is Judge Barrett. I’m very
confused by your argument, I have to say, because I
read your brief the way that Judge Easterbrook, you
know, is characterizing it to you. I read it as asking us
to overrule Casillas and conceding that your client has
suffered no harm. Am I understanding your position
correctly?
Mr. Warner
No, that’s not correct stated that way, Your Honor.
Plaintiff was merely stating that there is a concern
regarding the dearth of guidance in this circuit
evaluating Article III standing requirements. Plaintiff
asserts here that there are two main ways in which
Ms. Nettles has satisfied Article III standing
requirements, and that these should be addressed to

17a
have a consistent guideline for practitioners on both
sides to understand. Plaintiff’s brief is that, look,
under Spokeo, Justice Thomas’s concurrence, if
Congress has created a private right of duty owed
personally to the plaintiff, then the violation of that
legal duty suffices for an Article III injury in fact. A
concrete injury. So maybe – –
Judge Easterbrook
Counsel, look, that line of argument is the argument
taken by the dissent in Thole v. U.S. Bank. We’re
obviously going to follow the majority of the Supreme
Court.
Mr. Warner
Unfortunately, Your Honor, I – –
Judge Easterbrook
Counsel, if it’s not sufficient just to say, “Well, we have
a statutory right, therefore we have standing,” and
you need to show harm – – injury in fact – – what, in
your view, is the injury in fact?
Mr. Warner
Well, here the injury in fact was that when she
received the letter there was a confusing statement
about the amount of money that was owed. She’s not
––
Judge Easterbrook
Maybe I’m not clear. I’m not asking you to describe
what the defendants did. I’m asking you to describe
how the plaintiff was injured.

18a
Mr. Warner
How the plaintiff was injured is that she received an
untruthful communication demanding more money
than what she owed. That is the injury in fact.
Judge Easterbrook
I’ll try once more. In a standard tort case, it isn’t
sufficient to say something like the defendant was
speeding. It isn’t even sufficient to say the defendant
was speeding and hit my car. You say something like,
the plaintiff suffered an injury and went to the
hospital and spent money and lost time from work.
That is, you describe how the plaintiff was injured
rather than what the defendant did to cause the
injury. Could you please describe how, in your view,
the plaintiff was injured?
Mr. Warner
Yes, Your Honor. She received a letter that says that
she demands – – demanding more money that what
she assumed she had entered into her consent
judgment. She goes to her attorneys, you know, gives
the letter to her attorneys. She’s upset about it. She
doesn’t understand her rights. She has to consult
another attorney – – her attorney again to find out
what’s going on. Why is it this way? She tried to make
payments. They stopped unilaterally and this is the
first letter she gets demanding more money than what
she owes. She’s completely confused of her rights. She
changed her course of action of just waiting around to
pay the amount that she was owed, waiting for
someone to tell her who she had to pay, and she has to
go consult an attorney. So there’s a change of course of
behavior in which if she hadn’t would follow your

19a
example that was provided, is that there was
something different that she did out of the ordinary
course that changed her behavior. I mean, it is de
minimus and that’s why we’re seeking statutory
damages for loss of time, for irritants, for annoyance.
I mean – – the court in the Seventh Circuit has said,
for example, in TCPA cases that annoyance alone is
sufficient for standing. And this is the same that can
be applied to all consumers. When you analyze
FDCPA cases – –
Judge Easterbrook
Counsel, I’m a little worried about the contention that
consulting an attorney is an injury that affords Article
III standing. Because then there’s standing in every
case. The plaintiff in Casillas consulted an attorney.
The plaintiff in Thole consulted an attorney. Shouldn’t
those cases, on that view, have found standing?
Mr. Warner
Your Honor, unfortunately, I haven’t read Thole. I
haven’t seen it come out. And no supplemental
authority was filed by the defendant, so I apologize for
not knowing what Thole is. And maybe I need to
submit supplemental briefing after on the issue of
standing after the Supreme Court’s opinion that just
came out on Monday. She goes – – she goes to the
attorney because – – it’s not that she just hands the
letter to the attorney. There is an issue. She wants to
know what her rights are. Why isn’t the consent
judgment, of which she agreed to, being applied? Why
does Midland want to collect more money here? So
there is – – that is a basis for a injury in fact, on
that – –

20a
Judge Barrett
So you’re saying the injury is that she was upset and
confused and fearful that she owed the higher
amount?
Mr. Warner
Well, those are feelings. But you would – – if you look
at this court’s opinion in Lavallee it’s that if you can
look at what a reasonable unsophisticated consumer
might react reading such a letter, that is the standard.
So you can’t look just at the plaintiffs themselves at
what happened. You would have to look at would a
unsophisticated consumer receiving a letter that tells
them that they owe more money, and – –
Judge Barrett
Counsel, that’s not – – the reasonable unsophisticated
consumer standard is about how we interpret the
language that they receive. It’s not about defining the
injury in the way that you’re describing it. I mean, you
said that it – – an irritant was enough to constitute a
concrete injury. So here, you’re saying that she was
irritated. She was upset and confused. You tied it to
an emotion, right? Irritation?
Mr. Warner
Yes. I’m just also stating the standard because when
you look at class actions, I mean – – and this is going
to be something that is going to be equally applicable
to an unsophisticated consumer using an objective
standard, is what does the conduct create? The whole
thing about class actions is you don’t look to
individualized parts – –

21a
Judge Easterbrook
Counsel, you have one minute left.
Mr. Warner
If there are no questions on standing, if I could just
briefly discuss the merits. As to the merits, the district
court was correct to deny arbitration. The consent
judgment, it’s a novation under Michigan law. The
cases that Midland has cited – – especially that Gore
v. Alltel Communications – – this court has given a
hypothetical that states that if it arises out of a
contract without an arbitration agreement, you can’t
compel arbitration. That’s this case. Garcia didn’t
raise the exact same things that the plaintiff states.
Miller v. Williams, they actually misstate the entire
case, if you look at the federal court’s docket. Niro is
inapplicable, that’s also – – it doesn’t take into account
that there was a novation. If there’s nothing further, I
conclude.
Judge Easterbrook
Thank you very much, Counsel. Mr. Seitz, you’ve got
about thirty seconds left.
Mr. Seitz
Your Honor, I really have nothing further. With the
court’s permission, I will rest on my argument.
Judge Easterbrook
Certainly, Counsel. Thank you very much. The case is
taken under advisement.

22a
United States District Court,
N.D. Illinois, Eastern Division.
Ashley NETTLES, individually and on behalf of
similarly situated persons, Plaintiff,
v.
BLATT, HASENMILLER, LEIBSKER & MOORE
LLC, Midland Funding LLC, and Midland Credit
Management, Inc., Defendant.
No. 18-cv-7766
Signed 09/30/2019
MEMORANDUM OPINION AND ORDER
Honorable Edmond E. Chang, United States District
Judge
Ashley Nettles brings this proposed class action
against Defendants Midland Funding LLC and
Midland Credit Management, Inc.,1 alleging that they
violated the Fair Debt Collection Practices Act, 15
U.S.C. § 1692 et seq.2 Midland Funding and Midland
Credit now move to compel arbitration, arguing that
Nettles’ claim is subject to a “valid and enforceable
arbitration agreement [that] exists between Plaintiff
Nettles voluntarily dismissed another defendant (the law firm
of Blatt, Hasenmiller, Leibsker & Moore LLC) earlier in the case.
R. 35.
1

The Court has subject matter jurisdiction under 28 U.S.C.
§ 1331.
2

23a
and Defendants.” R. 19,3 Defs.’ Mot. to Compel at 9.
For the reasons explained below, the Defendants’
motion to compel arbitration is denied without
prejudice.
I. Background
The only facts set out here are those needed to
decide the pending motion. The Defendants owned, by
assignment, a credit card account that Nettles had
opened with Credit One Bank in October 2015. See
Defs.’ Mot. to Compel at 2–4. This account was subject
to a Cardholder Agreement, Disclosure Statement,
and Arbitration Agreement (Credit Card Agreement).
Id. at 2. Nettles made her last payment on the account
in January 2016. Id. at 3. When the credit card
account was charged off around six months later, in
July 2016, the balance was $601.97. Id. In the weeks
that followed, the account—and all underlying rights,
title, and interest—was sold and assigned to multiple
entities. Id. Ultimately, in August 2016, Midland
Funding obtained ownership of the account. Id.
The arbitration provision of the Credit Card
Agreement, which was assigned to the Defendants,
covers (among other things) “communications” and
“collections matters” relating to the account:
Claims subject to arbitration include, but are
not limited to . . . any disclosures or other
documents or communications relating to your
Account; . . . billing, billing errors, credit
reporting, the posting of transactions, payment
Citations to the record are noted as “R.” followed by the docket
number.
3

24a
or credits, or collections matters relating to your
Account . . . and any other matters relating to
your Account . . . .
Defs.’ Mot. to Compel, Wiese Decl., Exh. C, Changes in
Terms at 6 (emphases added). The arbitration
provision also states that it survives any transfer or
assignment of the account, id. at 9, and that “disputes
about the validity, enforceability, coverage or scope of
this Arbitration Agreement or any part thereof are not
subject to arbitration and are for a court to decide[,]”
id. at 7.
In March 2017, Midland Funding filed a lawsuit
against Nettles in Michigan state court, demanding
payment of the $601.97 due on the account. R. 25, Pl.’s
Resp. Br. at 2; id. at Exh. A. A few months later, in
June 2017, counsel for Nettles and Midland Funding
engaged in settlement negotiations. Pl.’s Resp. Br. at
4. The case was ultimately resolved in a Consent
Judgment, entered by the Michigan judge in July
2017, which set up a monthly payment plan:
“Defendant [Nettles] shall pay $50.00 per month
beginning in 08/01/2017 until paid in full. Should
Defendant fail to comply with this agreement in any
manner, Plaintiff may file an Affidavit of NonCompliance and commence all legal collection activity
on the remaining balance.” Id. at Exh. C. The total
amount of the Consent Judgment was $689.37, which
included $87.40 in costs. Id. It is worth noting that the
Consent Judgment explicitly disclaimed statutory
interest, id., and counsel for Midland Funding agreed
during negotiations that there would be no interest
charged post-judgment, id. at Exh. B (June 28, 2017
emails).

25a
Under the Consent Judgment, Midland Funding’s
law firm withdrew $50 from Nettles’ bank account
each month from August to October 2017. Pl.’s Resp.
Br. at 4. After this, Nettles alleges, the law firm
stopped accepting her payments. Id. It turned out that
the law firm later permanently closed in midDecember 2017. Id. at Exh. D. In any event, Nettles
alleges that, as of October 3, 2017, she only owed
$593.37 on the Consent Judgment. Id. at 5. Despite
this, Nettles received a letter in June 2018 claiming
that her current balance was $643.59 (and notifying
her that Midland Credit was the new servicer on the
account). Id. at Exh. E. The letter provided a “Legal
Collections Account Number” (No. 17-321241) and
identified the original creditor (Credit One Bank) and
the original account number (ending in -0849). Id. But
the letter did not refer to the Consent Judgment. Id.
Nettles alleges that the Defendants violated the
Fair Debt Collection Practices Act (FDCPA) when they
failed to properly credit the payments she had made,
and when they tried to collect a larger amount of
money than she actually owed. R. 1, Compl. ¶¶ 44–53.
II. Legal Standard
The Federal Arbitration Act requires federal courts
to enforce valid arbitration agreements. 9 U.S.C. § 2.
“Although it is often said that there is a federal policy
in favor of arbitration, federal law places arbitration
clauses on equal footing with other contracts, not
above them.” Janiga v. Questar Capital Corp., 615
F.3d 735, 740 (7th Cir. 2010) (citing Rent-A-Center,
West, Inc. v. Jackson, 561 U.S. 63, 68 (2010)). That is,
the Act enforces parties’ agreements to arbitrate and
“put[s] arbitration on a par with other contracts and

26a
eliminate[s] any vestige of old rules disfavoring
arbitration.” Stone v. Doerge, 328 F.3d 343, 345 (7th
Cir. 2003).
If the parties have a valid arbitration agreement
and the asserted claims in a lawsuit are within its
scope, then the arbitration requirement must be
enforced. 9 U.S.C. §§ 3–4; Sharif v. Wellness Int’l
Network, Ltd., 376 F.3d 720, 726 (7th Cir. 2004) (citing
Kiefer Specialty Flooring, Inc. v. Tarkett, Inc., 174 F.3d
907, 909 (7th Cir. 1999)). Whether the parties entered
into a binding arbitration agreement is determined
under principles of state contract law. Janiga, 615
F.3d at 742 (citing First Options of Chicago, Inc. v.
Kaplan, 514 U.S. 938, 934 (1995)). The party seeking
to compel arbitration has the burden of establishing
an agreement to arbitrate. 9 U.S.C. § 4; A.D. v. Credit
One Bank, N.A., 885 F.3d 1054, 1063 (7th Cir. 2018)
(“[A]s the party seeking to compel arbitration, Credit
One had the burden of showing that A.D. was bound
by the cardholder agreement as an authorized user”).
At the same time, the Act also “establishes that, as a
matter of federal law, any doubts concerning the scope
of arbitrable issues should be resolved in favor of
arbitration.” Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 24–25 (1983). Indeed, the
party that is resisting arbitration bears the burden of
identifying a triable issue of fact on the purported
arbitration agreement. See Tinder v. Pinkerton Sec.,
305 F.3d 728, 735 (7th Cir. 2002). The opponent’s
evidentiary burden is akin to that of a party opposing
summary judgment under Federal Rule of Civil
Procedure 56. Id. “[A] party cannot avoid compelled
arbitration by generally denying the facts upon which
the right to arbitration rests; the party must identify

27a
specific evidence in the record demonstrating a
material factual dispute for trial.” Id. Just like at the
summary judgment stage, the Court must view the
evidence in the light most favorable to the non-movant
(that is, the party opposing arbitration) and draw
reasonable inferences in the non-movant’s favor. Id. If
the party opposing arbitration identifies a genuine
issue of fact as to whether an arbitration agreement
was formed, “the court shall proceed summarily to the
trial thereof.” 9 U.S.C. § 4; see Tinder, 305 F.3d at 735.
III. Analysis
The Defendants argue that Nettles’ FDCPA claim
is subject to the arbitration provision in the Credit
Card Agreement, which also allegedly bars Nettles
from bringing a class action (that is, it limits account
holders to individual-only claims). Defs.’ Mot. to
Compel at 1. To compel arbitration, the Defendants
must show: (1) an agreement to arbitrate, (2) a dispute
within the scope of the arbitration provision, and
(3) refusal by Nettles to proceed to arbitration. See
Zurich Am. Ins. Co. v. Watts Indus., 466 F.3d 577, 580
(7th Cir. 2006). In this case, the second element is at
issue. Nettles asserts that the Consent Judgment—
which does not contain an arbitration provision—is
the only contract that governs this dispute, in part
because it is the document that “Defendants’ collection
activity was based upon.” Pl.’s Resp. Br. at 1, 7, 10.
According to Nettles, because the arbitration
provision is limited to claims related to the credit card
account, and because her claim is based instead on the
Defendants’ attempts to collect money owed on the
Consent Judgment, her lawsuit is not arbitrable. Id. at
7–10.

28a
There is a genuine issue of material fact on exactly
what it was—the credit card account, the Consent
Judgment, or some combination—that the Defendants
were trying to collect on via the June 2018 letter. First,
the letter informs Nettles that “Your MCM [Midland
Credit] Legal Collections account number(s) are listed
below,” and asks Nettles to refer to that number in any
calls with Midland Credit.” Pl.’s Resp. Br., Exh. E
(emphasis added). The letter then lists the “Legal
Collections Account Number.” Id. The letter also
specifies the identity of the “Original Creditor” (Credit
One Bank) and the “Original Creditor Account
Number.” Id. When viewed in Nettles’ favor, Midland
Credit’s use of the term “Legal Collections” gives rise
to an inference that the Defendants were trying to
collect on the Consent Judgment, which was the
product of the prior legal action filed by Midland
Funding. Also, in this now federal-court case, the
Defendants have offered no evidence, so far, on how or
why the June 2018 letter was generated, and its
connection (or lack of it) to the Consent Judgment. It
is not even clear where the $643.59 came from. On the
current record, the Defendants have failed to provide
enough evidence to indisputably show that the
collection effort was for some amount arising from the
credit card account, without any connection to the
Consent Judgment. See Johnson v. Uber Techs., Inc.,
2017 WL 1155384, at *2 (N.D. Ill. Mar. 13, 2017)
(denying the motion to compel arbitration for lack of
evidence, and explaining that “Uber, as the movant,
was required to present to the Court facts such that a
reasonable jury could return a verdict in its favor[,]”
especially because, absent any discovery, “the
information that is lacking is completely within Uber’s

29a
control”). Taking all reasonable inferences in Nettles’
favor, for now the Court must assume that the
Defendants’ demand for $643.59 in the June 2018
letter was based on the Consent Judgment.4
With this factual premise in mind, the Court now
turns to whether the Consent Judgment falls within
the scope of the arbitration provision. “To determine
whether a contract’s arbitration clause applies to a
given dispute, federal courts apply state-law
principles of contract formation.” Gore v. Alltel
Communications, LLC, 666 F.3d 1027, 1032 (7th Cir.
2012). In this case, the parties appear to rely on
Michigan law, and this Opinion will do the same.5
Although Nettles’ contention that the June 2018 letter was an
attempt to collect on the Consent Judgment works in her favor
for avoiding arbitration, it is not clear how that characterization
might undermine the FDCPA claim on the merits. That is, does
the FDCPA apply at all to an attempt to collect on the Consent
Judgment? This is worth the parties’ attention if the case moves
forward to the merits stage, and indeed is something worth
considering when it comes to assessing the settlement value of
the case.
4

The Defendants assert in their motion to compel arbitration
that Nevada law applies to the Credit Card Agreement. Defs.’
Mot. to Compel at 10; see id. at Wiese Decl., Exh. C at 5. But the
defense goes on to cite federal case law more generally, rather
than Nevada-specific law. Defs.’ Mot. to Compel at 12–13.
Meanwhile, Nettles argues that the Consent Judgment is subject
to Michigan law and cites a federal case that applies Michigan
law. Pl.’s Resp. Br. at 8-9. In the defense’s reply brief, when
arguing in favor of a broad interpretation of the arbitration
provision, the Defendants cite at least one federal case applying
Michigan law. R. 28, Defs.’ Reply at 6 (citing Garcia v. Weltman,
Weinberg & Reis Co., 2014 WL 1746522 (E.D. Mich. Apr. 30,
2014)). In any event, neither side argues that there is any
Continued …
5

30a
Under Michigan law, the “primary task is to ascertain
the intent of the parties at the time they entered into
the agreement, . . . by examining the language of the
agreement according to its plain and ordinary
meaning.” Altobelli v. Hartmann, 884 N.W.2d 537, 542
(Mich. 2016). When considering the scope of an
arbitration provision, courts have emphasized that “a
party cannot be required to arbitrate an issue which it
has not agreed to submit to arbitration.” Id. at 542–43
(cleaned up).6
The Defendants argue that, even if Nettles’
FDCPA claim “is based entirely on the consent
judgment arising out of the Michigan action, it would
still be subject to arbitration[,]” because Nettles
“agreed that any issues arising out of collections
matters, such as a consent judgment, would also be
arbitrable.” R. 28, Defs.’ Reply at 2.7 The Defendants
also argue that the June 2018 letter was an attempt
to collect on the account, so the letter is a
“communication[ ] relating to [Nettles’] Account . . .[,]”
substantive difference in choice of law. So this Court will apply
Michigan principles of contract interpretation.
This opinion uses (cleaned up) to indicate that internal
quotation marks, alterations, and citations have been omitted
from quotations. See Jack Metzler, Cleaning Up Quotations, 18
Journal of Appellate Practice and Process 143 (2017).
6

The Defendants also rely on Garcia, 2014 WL 1746522 to show
that “[o]ther courts have applied credit card agreements to postjudgment activity.” Defs.’ Reply at 6. Unlike Nettles, however,
the plaintiff in Garcia did not argue that the underlying
judgment controlled her FDCPA claim and fell outside the scope
of the arbitration provision. As such, the case is distinguishable
from the present dispute.
7

31a
which places it within the scope of the arbitration
provision. Id. at 5.
The first problem with the defense’s argument is
that it assumes a factual premise that has not yet been
proven, that is, that the letter was an attempt to
collect on the account rather than the Consent
Judgment. If, after discovery, the record evidence
shows that the defense was collecting only on the
account without any reference to the Consent
Judgment, then the Defendants will be entitled to
invoke the arbitration provision. But that fact is not
yet established.
If, on the other hand, the record evidence later
shows that the June 2018 letter was an attempt to
collect on the Consent Judgment, then the FDCPA
claim is outside the scope of the arbitration provision.
Collection on the Consent Judgment would not qualify
as communications or collections matters “relating to”
the original credit card account. Defs.’ Mot. to Compel,
Wiese Decl., Exh. C, Changes in Terms at 6 (emphasis
added). Instead, the Defendants would be attempting
to collect on the Consent Judgment, which is not the
same as the credit card account and is instead a
separate contract. Cf. United States v. City of
Northlake, Ill., 942 F.2d 1164, 1167 (7th Cir. 1991) (“A
judicially approved consent decree, like a settlement
agreement, is essentially a contract for purposes of
construction.”). Against this, the Defendants rely on
the notion that collecting on the Consent Judgment
constitutes a “collections matter” subject to
arbitration. But that stretches the term “collections
matter” too far. “Collections matter” cannot possibly
include the collections lawsuit itself (that is, the

32a
Michigan state court case)—if it did, then Midland
Funding’s own lawsuit in state court would have been
subject to arbitration. The same reasoning applies to
the judgment that is the product of the lawsuit.
Indeed, the consequences of the Defendants’ argument
is that not even the Michigan state court could enforce
the very judgment that it entered. Consider this
example: if Nettles had started paying $25 a month
instead of $50 as required by the Consent Judgment,
and if Defendants then asked the state court judge to
enforce the Consent Judgment and compel Nettles’
compliance (for example, through citations on assets
or garnishment), then Nettles could force the
Defendants to arbitrate that dispute. There is no
reason to think that an arbitration provision dealing
with collections matters relating to the original
account, or communications “relating to” the account,
is so expansive that it deprives a court from deciding
disputes over a court-ordered judgment that resolved
a collection lawsuit. So if the evidence reveals that the
June 2018 letter was an attempt to collect on the
Consent Judgment, then the arbitration provision will
not apply.
IV. Conclusion
The Defendants’ motion to compel arbitration is
denied, though without prejudice. The status hearing
of December 5, 2019 is accelerated to October 24, 2019
at 10:45 a.m. The parties shall confer on a discovery
plan addressing whether the June 2018 letter was an
attempt to collect on the Consent Judgment. The
results of that conferral shall be reported in a joint
status report, due on October 21, 2019.

